No. 20A87

~upreme ~ourt of tbe llniteb ~tates
THE ROMAN CATHOLIC DIOCESE OF BROOKLYN, NEW YORK,

Applicant,
V.

GOVERNORANDREW M. CUOMO, in his official capacity,

Respondent.

CERTIFICATE OF SERVICE
I hereby certify that I am a member of the bar of this Court and an attorney
representing respondent Governor Andrew M. Cuomo, in his official capacity, in this
case, and that on November 18, 2020, I caused to be served via e-mail one copy of the
within Opposition to Application for Writ of Injunction and two-volume Appendix for
Respondent upon the following counsel, who has consented to e-mail service:
Randy M. Mastro
Gibson, Dunn & Crutcher LLP
200 Park Avenue
New York, New York 10166
(212) 351-4000
rmastro@gibsondunn.com

f).

GINSBERG
)(
Assistant Solicitor General
28 Liberty Street
New York, New York 10005
(212) 416-8020
brian.ginsberg@ag.ny.gov
BRIAND.

